BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
Nos. 19-251 & 19-255
AMERICANS FOR PROSPERITY FOUNDATION,

Petitioner,
V.

XAVIER BECERRA, ATTORNEY GENERAL OF
CALIFORNIA,

Respondent.
THOMAS MORE LAW CENTER,

Petitioner,
V.

XAVIER BECERRA, ATTORNEY GENERAL OF
CALIFORNIA,

Respondent.
As required by Supreme Court Rule 33. l(h), I
certify that the Brief Amicus Curiae of Free Speech
Coalition, Free Speech Def. & Ed. Fund, Cal.
Constitutional Rights Fdn, Gun Owners Fdn, Gun
Owners of America, Nat'l Ass'n for Gun Rights, Nat'l
FdnforGunRights, Leadership Inst., Young America's
Fdn, Nat'l Right to Work Legal Def. Fdn, Nat'l Right
to Work Com., One Nation Under God Fdn, U.S.
Constitutional Rights Legal Def. Fund, Public
Advocate, Clare Boothe Luce Center for Cons. Women,
Western Journalism Center, Cons. Legal Def. & Ed.
Fund, Downsize DC Fdn, DownsizeDC.org, The Senior
Citizens League, and Restoring Liberty Action Com. in
Support of Petitioners contains 7,945 words, excluding

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

the parts of the Brief that are exempted by Supreme
Court Rule 33.l(d).
I declare under penalty of perJury that the
foregoing is true and correct.
Executed on March 1, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

JOHN 0. GALLAGHER
Notary Public, State of Ohio
My Commission Expir,s
r-ebnmry 14, ?Oi3

